No

IN THE
SUPREME COURT OF THE I.INITED STATES

KORY CHzuSTIAN PEDERSEN,
Petitioner,

v
OREGON BOARD OF PAROLE
AND POST-PRISON SUPERVISION,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals

for the Ninth Circuit

CERTIFICATE OF SERVICE AND MAILING

I, C. Ren6e Manes, counsel of record and will become a member of the Bar of this Court
should certiorari be granted, certit/ that pursuant to Rule 29.3, service has been made of the within

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on the counsel for the respondent by depositing in the United States Post Office, in

1

Portland, Oregon on June 1,202I, first class postage prepaid, a true, exact, and full copy thereof
addressed to

ELLEN F. ROSENBLUM
Attorney General
BENJAMIN GUTMAN
Solicitor General
JOANNA HERSHEY
Senior Assistant Attorney General
Oregon Department of Justice
1162 Court St. NE
Salem, Oregon 97 301 -4096

Further, the original and ten copies were mailed to the Honorable Scott S. Harris,

Clerk of the United States Supreme Court, by depositing them in a United States Post Office Box,
addressed to

tu

I First Street, N.E., Washington, D.C., 20543,for filing onJune

postage prepaid.

C. Ren6e Manes
Attorney for Petitioner

SUBSCRIBED AND SWORN to before me this June 1,2021

Notary Public of Oregon

2

1,

202l,with first-class

